o. 19-1309

I

THE

$upreme QI:ourt of tbe mlniteb $tates
KARI J A AE PlllPPS,

Petitioner.

v.
STATE OF !DARO,

R espondent.

CERTIFICATE OF COMPLIA CE
I hereby certify that I am a member in good s tanding of the bar of this Court and that the
Brief for Idaho Association of Crimin al Defense Lawyers a s Amicus Curiae in S uppor t of
P etitioner contains 5.678 words and complies with the word limitation established by Rule
33.l (g)(x) of the Rules of th is Court.
Dated: June 22, 2020

